               UNITED STATES
    CONSUMER PRODUCT SAFETY COMMISSION




        OFFICE OF INSPECTOR GENERAL

AUDIT OF THE FEDERAL TRANSIT BENEFITS PROGRAM

                    Issued:

                 March 24, 2014
                                                    TABLE OF CONTENTS




EXECUTIVE SUMMARY ............................................................................................................ 1
INTRODUCTION .......................................................................................................................... 4
   OBJECTIVES ............................................................................................................................. 4
   SCOPE ........................................................................................................................................ 5
   METHODOLOGY ..................................................................................................................... 5
RESULTS AND FINDINGS .......................................................................................................... 7
   1. Lack of Adherence to CPSC Policy and Procedures: ............................................................ 7
   2. Noncompliance with Government-Wide Policies and Procedures: ..................................... 14
   3. Lack of Properly Designed, Implemented, and Effective Internal Controls: ...................... 15
CONCLUSION ............................................................................................................................. 17
APPENDIX A: MANAGEMENT RESPONSE ........................................................................... 18
                                   EXECUTIVE SUMMARY

BACKGROUND

The Department of Transportation DOT uses its TRANServe program to assist participating federal
agencies, including the U.S. Consumer Product Safety Commission (CPSC), to provide non-taxable
subsidies to federal employees through the Federal Transit Benefit Program (FTBP). The FTBP is
designed to encourage federal employees to use mass transportation in their commutes to and from
work to reduce air pollution, noise, and traffic congestion in metropolitan areas.

The CPSC Office of Inspector General (OIG) conducted an audit of the Federal Transit Benefits
Program (FTBP) administered by the agency. The OIG conducted this audit in accordance with
Generally Accepted Government Auditing Standards (GAGAS). We reviewed FTBP activity at the
CPSC during the period October 1, 2011 through December 31, 2012. This included reviewing
applicable documents to understand the operations of the FTBP and the related internal controls.
Furthermore, to evaluate management’s remediation efforts, we performed follow-up procedures
over the previously issued fiscal year (FY) 2009 FTBP Review findings provided to the Office of
Facilities (EXFS). Finally, we assessed the agency’s compliance with identified applicable laws,
regulations, policies, and provisions.

RESULTS OF EVALUATION AND FINDINGS

This report covers our assessment of the operations of the CPSC’s FTBP for FY 2011 and the first
quarter of FY 2013. Overall, we found that the CPSC had a functioning FTBP, but the program had
several internal control weaknesses. In addition, we discovered that the program did not comply with
certain government-wide policies and procedures mandated by the U.S. Department of
Transportation (DOT), the entity responsible for the general administration of the FTBP throughout
the federal government. Our findings included the following:

    1. Lack of Adherence to CPSC Policies and Procedures:
       The FTBP at the CPSC did not comply with the procedures outlined in CPSC Directive
       862.1 – Transit Subsidy Benefit Program. Specifically, the CPSC did not follow its own
       procedures in these areas:
           − cancellation of transit benefits using CPSC Form 119A;
           − verification of participant addresses;
           − verification and recalculation of participant benefits;
           − return of excess transit benefits;
           − participant separations from the program;
           − receipt of transit subsidy debit cards; and
           − the development and maintenance of written standard operating procedure(s) (SOPs)
              to ensure that the program complies with all applicable federal laws, regulations, and
              provisional guidance.

    2. Noncompliance with Government-Wide Policies and Procedures:
       The CPSC, in general, and the Office of Financial Service (EXFS), in particular, did not
       comply with various government-wide regulations associated with the FTBP. We identified
       noncompliance with these regulations:




                                                 1
           (a) Office of Management and Budget (OMB) Circular A-123, Management’s
               Responsibility for Internal control. The CPSC did not properly establish,
               implement, or maintain effective internal controls; and

           (b) OMB M-07-15, Federal Transit Benefit Program Memorandum. This regulation
               directs agency and department heads on the specific internal controls that CPSC
               must implement, at a minimum, over the FTBP to meet OMB’s requirements.
               The CPSC did not effectively maintain the required controls related to:
                   − verifying participants’ addresses;
                   − confirming the accuracy of benefits received;
                   − returning excess benefits; and
                   − removing participants from the program.

3. Lack of Properly Designed, Implemented, and Effective Internal Controls:
   Internal controls are designed to provide reasonable assurance regarding the achievement of
   objectives in the following categories: (a) Effectiveness and efficiency of operations; (b)
   Reliability of financial reporting; and (c) Compliance with laws and regulations. The
   CPSC’s FTBP does not have adequate internal controls. We identified issues with the
   design, implementation, and/or effectiveness of the internal controls in multiple areas of the
   CPSC’s FTBP:

           a) The manner in which the agency initiates, modifies, and terminates FTBP
              benefits does not comply with the CPSC’s established internal controls.

           b) The existing internal controls governing the monitoring of FTBP participant
              activity are weak.

           c) The CPSC fails to follow its own internal controls governing the verification of
              FTBP participant home addresses. This is a particularly vital internal control
              because the home addresses of the participants are used to determine the amount
              of benefits each participant is entitled to receive.

           d) The internal controls governing the authorization of CPSC employees to
              participate in the FTBP are not functioning as intended.

           e) The CPSC lacks internal controls to ensure that FTBP participants who take
              extended leave do not draw FTBP benefits to which they are not entitled (this
              internal control deficiency, to some extent, has been mitigated by DOT’s
              implementation of internal controls designed to address this situation when other
              agencies fail to do so).

           f) The CPSC does not follow existing internal controls governing the
              documentation of debit cards CPSC receives from DOT.




                                             2
                                MANAGEMENT’S RESPONSE

Management concurred with our findings and recommendations and is developing a Corrective
Action Plan (CAP) to remediate the findings and recommendations. In addition, we note that on
February 1, 2013 (outside the audit scope), TranServe transitioned to an online system to manage all
FTBP participants government-wide. The CPSC implemented this automated system and
participants now use the system to apply, change, and/or cancel their benefits. Some of the issues
identified during the audit have the potential to be remediated by this system. However, the OIG did
not perform procedures over the processes used by the automated system. Therefore, we are unable
to comment on management’s assertions regarding the effectiveness of the automated system.
Notwithstanding the implementation of the online system described above, the single most important
internal control over the FTBP at the CPSC is CPSC Directive 862.1. Once updated to reflect the
recommendations made in this audit, this directive will memorialize the corrective actions taken and
formalize the changes made in the program to remediate the findings identified in this report. To
date, however, the CPSC has not revised CPSC Directive 862.1.




                                                 3
                                        INTRODUCTION

BACKGROUND

The DOT uses its TRANServe program to assist participating federal agencies, including the CPSC,
to provide non-taxable subsidies to federal employees through the Federal Transit Benefit Program
(FTBP). The FTBP is designed to encourage federal employees to use mass transportation in their
commutes to and from work to reduce air pollution, noise, and traffic congestion in metropolitan
areas.

DOT established the FTBP began in the early 1990s, and the program evolved to the present day, as
follows:

   •   The program was established in 1991, when the Federal Transit Administration (FTA) began
       pilot testing a program to provide $21.00 a month in transit fare to employees.
   •   During 1993, the Federal Employees Clean Air Incentive Act was signed into law,
       authorizing federal participation in the Transit Benefit Program.
   •   On April 21, 2000, President Clinton signed Executive Order 13150, the Federal Workforce
       Transportation Fringe Benefit, which called upon DOT, the U.S. Environmental Protection
       Agency (EPA), and the U.S. Department of Energy (DOE) to implement a nationwide pilot
       program for “transit pass” fringe benefits.
   •   In 2005, the Safe, Accountable, Flexible, and Efficient Transportation Equity Act: A Legacy
       for Users, required federal agencies to implement transit benefit programs for all eligible
       employees.

The DOT’s TranServe program offers distribution services of transit benefits nationwide to
organizations throughout the federal government. TranServe distributes more than $320 million in
cash-equivalent fare media annually and provides service to more than 275,000 transit benefit
participants employed by more than 100 federal organizations nationwide. During FY 2011,
TranServ distributed approximately $150 million in federal transit benefits to more than 106,000
federal employees working at more than 80 federal organizations within the Washington D.C. region.
From the perspective of providing an efficient, economical means to distribute the transit benefits,
TranServe enables federal agencies to use a single, established distribution system with extensive and
effective internal controls to receive, maintain, and distribute fare media to federal employees. This
single-system approach eliminates duplicating these functions at agencies and individual offices
throughout the country.

OBJECTIVES

The OIG initiated this audit to assess the CPSC’s FTBP and to follow up on the previous findings
and recommendations from the November 2009 Review OIG performed. The primary objectives of
this audit include:

   1. Assessing the adequacy of the CPSC’s remediation efforts regarding the issues identified in
      the OIG November 2009 FTBP Review.

   2. Evaluating the CPSC’s current FTBP internal control structure to determine whether internal
      controls are designed properly, implemented appropriately, and operated effectively to ensure
      that the FTBP objectives are met.


                                                  4
   3. Evaluating the CPSC’s compliance with the federal laws, regulations, and provisions
      governing the FTBP.


SCOPE

This audit covered the operations of the CPSC’s FTBP. The scope of this audit included Federal
transit benefits provided to eligible CPSC employees from October 1, 2011 through December 31,
2012, as administered by the Office of Financial Services (EXFS) at CPSC headquarters in Bethesda,
MD. During the period in question, approximately 138 CPSC participants were enrolled in the
program, and these participants received a total of $135,456.25 in transit benefits. Audit fieldwork
took place from March 2013 through August 2013.


METHODOLOGY

We conducted this audit in accordance with Generally Accepted Government Auditing Standards
(GAGAS). Those standards require us to plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

To accomplish our audit objectives, we obtained an understanding of the CPSC’s administration of
the FTBP to include the design, implementation, and operating effectiveness of internal controls,
compliance with CPSC governing policies and procedures, and compliance with applicable federal
laws, regulations, and provisions. We obtained this understanding by: conducting interviews with
key EXFS Management personnel and the FTBP Coordinator; performing walk-throughs of the
program to identify internal controls and assess the execution of policies and procedures; inspecting
relevant supporting documentation; and examining TranServe transit subsidy data and reports. To
assess the internal control environment further, we also reviewed the CPSC’s remediation efforts
from the OIG FTBP review conducted in 2009.

Based on the information gathered, we identified specific risks and opportunities for fraudulent,
improper, and/or abusive FTBP activity within the CPSC. We also determined what key internal
control activities were in place to prevent or detect such occurrences. Additionally, we performed a
preliminary assessment of whether the internal controls were likely to be effective and identified any
internal control design inefficiencies based on the CPSC’s FTBP processes. From our preliminary
assessment, we designed audit procedures (test of controls) to assess the internal controls’ operating
effectiveness, to review specific attributes of the program, and to determine compliance with the
identified laws, regulations, and provisions governing the program.

To perform our audit procedures at the transaction level, the FTBP Coordinator provided us with a
population of transit subsidy benefits received by CPSC participants from October 1, 2011 through
December 31, 2012. We reviewed: (1) a FY 2011 Statement of Assurance from the DOT attesting to
the operational effectiveness of the TranServe internal controls; (2) interviews of TranServe and
CPSC agency officials knowledgeable about the data; and (3) documents verifying the completeness
of the population by obtaining a direct download of CPSC transit benefits from TranServe and
reconciling the information with the CPSC Coordinator’s population. Our reconciliation yielded no
differences. We determined that the data were sufficiently reliable for the purposes of this report.


                                                  5
The total population used for our audit procedures included 1,460 transactions, resulting in
$135,456.25 of benefits provided to CPSC employees.

To determine which transactions to review, we developed a dual-purpose sample to increase the
efficiency of audit procedures. The dual-purpose sample allowed for the simultaneous testing of
internal control effectiveness and the completeness and accuracy of transactions. We developed the
dual-purpose sample using a Monetary Unit Sampling (MUS) approach. This approach resulted in a
statistical sample of 59 transit benefit transactions (based on a 95 percent confidence level
((reliability)), and we had an expected error rate of five percent.)

Additionally, we performed procedures over specific attributes within the FTBP. For each specific
attribute, we tested 100 percent of the population (see Table 1 below for sample sizes). Attributes
tested included FTBP participants who separated from the CPSC, participants who took extended
leave from the CPSC and subsequently received excess benefits, and FTBP debit cardholders–all
within the audit scope period.


Table 1

Sum m ary of Sam ples


                                                                                                            Total
      Sam ple                     Type                         Description                              Transactions
MUS (Dual Purpose)      Statistical      Random sample of transactions                                       59

                                         Employees in the transit benefit program w ho separated from
Separated Employees     100% Selection   CPSC in the audit scope period                                      34




                                         Employees w ho took sick or annual leave in excess of three
                                         business days and subsequently received transit benefits for
                                         the time out of office in October or November 2011 (period
Excess Benefits                          w hen TranServe w as not automatically recouping excess
Received                100% Selection   benefits w ithin the audit scope)                                   9

                                         Employees w ho held debit cards through the transit benefits
Debit Card Holders      100% Selection   program in the audit scope period                                   8




                                                  6
                                 RESULTS AND FINDINGS

1. Lack of Adherence to CPSC Policy and Procedures:

   EXFS does not adhere to its internal control policies and procedures regarding the operation and
   monitoring of the CPSC’s FTBP. In our review of CPSC Directive 862.1, Transit Benefit
   Subsidy Program, we found inconsistencies in how EXFS and the FTBP Coordinator operated
   the program and how the CPSC’s policies and procedures state how the program was to operate.
   The FTBP Coordinator’s failure to comply with the procedures stipulated in the directive caused
   these inconsistencies. The inconsistencies identified indicate:

   Cancelling Transit Subsidy Benefits

      •   In canceling participant benefits, the FTBP Coordinator failed to use the required CPSC
          Form 119/119A (Appendix A & B to Directive 862.1). Directive 862.1, Section 6 –
          Policy (b) & (c) (which establishes the proper procedures for participants in
          communicating the cancellation of their transit subsidy) states that participants must
          complete CPSC Form 119/119A to join, modify, recertify, and/or cancel participation in
          the FTBP. Here, the Coordinator accepted e-mail or verbal notification from participants
          to cancel benefits. By not following the stated procedures, the Coordinator risked the
          possibility of overlooking instances in which a participant separated from the CPSC
          and/or ceased participation the program but continued to receive and use benefits.


   Monthly Monitoring of Transit Subsidy Benefits Activity & Transactions

      •   The FTBP Coordinator did not monitor properly and/or consistently the benefit
          downloads/transactions within the program. CPSC Directive 862.1, Section 8 –
          Responsibilities (e.)(4) establishes guidance for monitoring transit subsidy benefit
          transactions and activity by participants. The Coordinator attempted to perform a
          monthly reconciliation of the downloaded total benefits against data from DOT’s
          TranServe System. However, we identified (through re-performance of the June 2012
          monthly reconciliation) that the Coordinator did not follow up on variances and/or
          discrepancies of amounts noted during the monthly period. Without standard monthly
          monitoring of TranServe data over participant activity, the CPSC could be at risk of
          having incorrect or potentially fraudulent benefits claimed by participants and/or others
          who could access another participant’s subsidies.


   Participant Address Verification

      •   The FTBP Coordinator did not verify participants’ addresses upon their initial application
          for enrollment in the FTBP. CPSC Directive 862.1, Section 8 – Responsibilities (e)(2),
          (5), & (11) sets forth this requirement. The FTBP Coordinator is responsible for
          reviewing the applications (CPSC Forms 119/119A) for correct data, verifying
          commuting costs using the participants’ addresses, and confirming the addresses of
          program participants. Due to the FTBP Coordinator’s failure to review initial
          applications properly, the performance of address verification occurred only during the
          annual re-certification period, after the applicant had been receiving benefits for a year.
          However, based on our review of a sample of program participants who were scheduled

                                                7
       to recertify during the period from October 1, 2011 to December 31, 2012, we found that
       the Coordinator also failed consistently to verify the addresses of participants during their
       recertification period. We identified the following discrepancies:

           o Addresses for five samples were incorrect and did not match the listing provided
             by the CPSC’s Office of Human Resources (EXRM), and the Coordinator did not
             follow up on the discrepancies;

           o EXRM did not provide the participant addresses for two of the samples, and the
             Coordinator did not follow up with EXRM to obtain the addresses; and

           o At the time of application, the Coordinator did not verify addresses, at all, for
             three samples.

       In follow-up discussions with EXFS regarding these discrepancies, there were mitigating
       circumstances during the period in question that could account for some of the
       discrepancies involving interns and temporary employees.               Regardless of the
       circumstances, the Coordinator should be following up on all discrepancies, documenting
       the address inconsistencies, and determining the accuracy of the information. Without
       proper verification of addresses, there is a risk that participants are using incorrect or
       potentially fraudulent addresses to obtain increased benefits and/or benefits in general.


Approval of Benefits in Excess of Statutory Maximums

   •   In our examination of the FTBP Coordinator’s review and approval of transit benefit
       applications, we found that the Coordinator was not reviewing accurately and completely
       CPSC Forms 119 and 119A. Periodically, governing legislation changes the maximum
       benefit that participants can receive to subsidize their daily commutes. As such, the
       Coordinator should keep abreast of changes in legislation to ensure the proper
       incorporation of such changes into the CPSC’s policy and procedures. However, we
       found that after the statutory maximum benefit was lowered, some participants were
       approved for benefits in excess of the new statutory maximum:

           o The Coordinator approved one participant to receive $290 and approved another
             participant to receive $268 in benefit commuting costs─both amounts in excess
             of the statutory maximum, which at the time of our sample date, October 1, 2011,
             was $230; and

           o Another participant was approved erroneously to receive $4,210 instead of the
             $210 to which the participant actually was entitled to receive. Furthermore, the
             Coordinator failed to correct the error on the form.


       In all of the instances detailed above, we found that TranServe had automated internal
       controls to prevent program participants from receiving benefits in excess of the statutory
       maximum. As such, employees did not receive excess benefits. However, this does not
       change the fact that the Coordinator did not comply with the directive regarding the
       proper procedures for reviewing and approving Form 119 and Form 119A. See Section 8
       – Responsibilities (e)(2). The Coordinator’s actions created the risk for the CPSC that

                                              8
       participants who are enrolled in the program may receive incorrect or potentially
       fraudulent benefits.


Annual Recertification Process

   •   We also reviewed the recertification process, which requires active participants in the
       FTBP to “recertify” their CPSC Form 119 information annually. The recertification
       process is governed by CPSC Directive 862.1, Section 8 – Responsibilities (e.)(12). The
       recertification process allows the agency to confirm a participant’s continued eligibility
       for the FTBP, and if necessary, to modify a participant’s subsidy amount. From our
       review, we found that the Coordinator did not comply with the directive. We noted the
       following inconsistencies:

       o Nine participants in our sample, each of whom entered the program in FY 2011, did
         not perform a recertification in FY 2012, as required by the directive. Because there
         was no recertification until FY 2013, the applicants were allowed to draw benefits for
         almost two fiscal years after their initial application submission or modification
         before the agency confirmed their continued eligibility for benefits;

       o In our sample, we found 39 recertifications that were completed in FY 2012, and
         which were approved by the agency to receive subsidy amounts exceeding the
         statutory maximum of $125. On January 1, 2012, the statutory maximum benefit
         decreased from $230; the DOT issued a memorandum on December 12, 2011,
         announcing the change in the statutory maximum. However, the FTBP Coordinator
         did not update Form 119A to reflect this, and therefore, approved amounts that were
         above the new maximum. The CPSC’s failure in this area did not result in an
         overpayment of benefits because the DOT had compensating internal controls that
         prevented benefit payments exceeding the statutory limit;

       o A participant who cancelled participation in the FTBP on September 22, 2012, had
         not been required to recertify since FY 2010, a violation of the annual recertification
         policy; and

       o Another participant performed a modification of benefits on February 14, 2011. In
         accordance with the recertification rules, the recertification should have occurred in
         FY 2012, but there was no record that the participant was required to recertify in FY
         2012.

       The Coordinator’s failure to adhere to the recertification procedures increases the risk to
       the CPSC that participants in the FTBP are receiving incorrect or potentially fraudulent
       benefits.

Verification and Recalculation of Participant Benefits

   •   To determine the appropriate transit subsidy for each participant, the FTBP Coordinator
       is required to review for accuracy and completeness Forms 119A and 119 submitted by
       FTBP participants. The Coordinator designates the completion of the review by signing
       each form. To assess the effectiveness of the review performed, we determined the actual
       benefit amounts downloaded by the selected participants during a specific period within

                                              9
       the audit scope period. We recalculated and compared the actual benefits downloaded to
       the benefits the participants claimed they would require when they completed their Form
       119As. Our review found that the Coordinator was not complying with Directive 862.1,
       Section 8 – Responsibilities (e)(2) & (5) regarding the recalculation of participant
       commuting costs and the verification of the accuracy of monthly benefit amounts
       claimed. This creates a risk to the CPSC that when participants enroll in the FTBP, they
       may claim incorrect or potentially fraudulent benefits. We identified these discrepancies:

           o In three instances, the Coordinator approved the FTBP participants’ claims forms
             despite the participants completing the forms incorrectly. The forms did not
             properly identify the Metro (subway) station(s) and/or bus route(s) used to
             calculate the transit fares claimed. Furthermore, upon inquiry, the Coordinator
             could not recall how she verified the accuracy of the transit fares claimed.
             Therefore, to determine the accuracy of the amounts claimed by the participants,
             we calculated the participants’ transit fares using the participants’ addresses and
             the authorized fare rates from the respective transit authority. The fares we
             calculated did not match the fares indicated on the participants’ forms;

           o In one instance, the Coordinator approved a participant’s request to receive transit
             subsidy benefits based on an incorrectly completed Form 119A.                   The
             participant’s actual reimbursable transit fares for the month totaled $201.60. This
             amount was calculated using the correct cost of the daily commute to work, and
             based on 18 working days per month, the total number of days actually worked
             on the participant’s duty schedule. However, although this correct daily figure
             did appear on the Form 119A, the participant also calculated a weekly and
             monthly benefit total based on a traditional duty schedule and included those
             amounts in the overall total amount claimed of $291. Ultimately, the Coordinator
             approved the participant for this amount calculated incorrectly, which also
             exceeded the statutory maximum allowable monthly reimbursement of $230; and

           o Another participant also completed Form 119A incorrectly; again, the
             Coordinator improperly approved the participant’s claim. We recalculated the
             total value of monthly benefits to which the participant was actually entitled,
             which was $160 for 16 working days. However, in completing Form 119A, the
             participant claimed $210. Ultimately, the Coordinator approved the participant
             for the incorrect amount.




Return of Excess Benefits

   •   On December 1, 2011, the DOT began taking away excess monthly transit subsidy
       benefits not used by participants. Before that date, each recipient was responsible for
       returning unused benefits by contacting DOT directly or offsetting their receipt of excess
       benefits in one month by downloading fewer benefits the next month. This, in effect, was
       an “honor system,” which each participant in the program was expected to follow. For
       example, if a participant went on vacation (pre-planned–“extended leave”), the
       participant was expected to anticipate not needing their entire transit subsidy for the
       month. Therefore, the participant was expected to reduce the amount of transit benefits

                                            10
       downloaded for the month in question or to deduct the excess benefits received for the
       month in question from the benefits download the following month.

       Relying on an “honor system” presented a clear risk to the CPSC’s FTBP. However, the
       CPSC did not mitigate this risk through proper internal controls, such as monthly
       monitoring procedures to review of participants’ leave status (i.e., reviewing leave
       reports) to detect any misuse of transit subsidy funds. Ultimately, this weakness in
       internal controls increased the risk to the agency that participants would claim incorrect
       and/or potentially fraudulent benefits.

       We performed audit procedures to determine whether participants who were on extended
       annual or sick leave (i.e., leave exceeding three days) were returning or foregoing excess
       transit benefits for the month that they were on extended leave status. We found that a
       few participants received and kept excess benefits. We also found that the Coordinator
       was not complying with Directive 862.1, Section 8 – Responsibilities (e)(4) & (6)
       regarding policies and procedures for the proper monitoring of FTBP activity. The
       responsibilities in question included ensuring the return of excess benefits by participants.
       We identified the following exceptions:

           o One participant took extended leave in October and November 2011, but the
             employee downloaded the same value of transit benefits they would have used if
             they had not been on extended leave (i.e., they did not reduce the amount of their
             benefits, even though their extended leave left them entitled to less in transit
             benefits, which totaled $116.62). Although the participant downloaded fewer
             benefits than normal in December 2011 (the employee downloaded $113.25, only
             $34.75 less than the normal amount they received), the employee did not
             adequately offset the leave that they had taken in the previous months;

           o Another participant took extended leave at the end of November 2011, and should
             have returned $30.04 in excess funds. However, the funds from November 2011
             were not returned, and in December 2011, the participant downloaded their full
             benefit amount; and

           o Lastly, a participant took leave in October 2011, but downloaded their full
             benefits of $208 in October and November. In December, the participant
             downloaded $205.95, which was $2.05 less than their normal monthly transit
             benefit, leaving them with $98 in excess benefits that they should have returned
             but they did not return.


Participant Separations from the Program

   •   Participants may separate from the FTBP for a variety of reasons. The separation can
       occur because the participant simply decides that they no long wish to use public
       transportation to commute to/from work, or separation may occur when the participant’s
       employment with the CPSC ends. The FTBP Coordinator is responsible for ensuring that
       participants who separate from the FTBP are removed from the program in an
       appropriate and timely manner. Directive 862.1, Section 8 – Responsibilities (e)(15)
       covers the proper removal of employees from the FTBP upon separating from the CPSC.


                                              11
To test compliance, we designed audit procedures to determine whether the Coordinator
is following agency procedures and whether participants are, in fact, exiting the FTBP in
a timely manner. The results of our work indicated that the Coordinator is not following
agency procedures related to the CPSC’s Employee Departure Process (Section 5a) and
completion of the CPSC Form 226 – Employee Clearance and Accountability Form. The
Coordinator’s failure to follow procedures in this area has resulted in the delayed removal
of participants from the FTBP. These situations put the CPSC at risk of providing
benefits to unauthorized participants, which could create the potential for fraud to occur.
We determined that on several occasions FTBP participants have continued to receive
and use transit benefits after leaving the FTBP and/or the CPSC. We noted these
findings:

o In our sample, we found two instances in which the Coordinator did not give the
  DOT Transit Benefits Manager (TBM) the proper participant cancellation date as
  documented on CPSC Form 226;

o In one case, the Coordinator did not realize that a participant had separated from the
  CPSC on December 31, 2012, and as a result, the Coordinator did not request that the
  DOT TBM have the participant removed from the FTBP until March 22, 2013. As of
  the date of our review, July 16, 2013, the Coordinator had yet to complete the
  participant’s CPSC Form 226;

o A participant separated from the CPSC on September 28, 2012, but the Coordinator
  did not request that the DOT TBM remove the participant from the program until
  November 23, 2012. As result, the separation date given to the TBM did not match
  CPSC Form 226, and the former participant could have continued to collect benefits
  to which they were not entitled;

o One participant separated from the CPSC on June 18, 2010, but the Coordinator did
  not contact DOT to have the participant removed from the benefits program until
  November 2011. The Coordinator asserted that a request to the DOT to cancel the
  participant from the program did occur in November 2010; however, we could find
  no documentation to support that assertion. An e-mail dated November 25, 2011,
  establishes that the Coordinator asked to have the participant removed. Additionally,
  the Coordinator completed CPSC Form 226 on October 19, 2011; approximately 15
  months after the participant left the CPSC. As a result of the delayed removal, the
  participant downloaded transit benefits to which they were not entitled. Through
  discussion with the DOT, the Coordinator confirmed that the participant had
  continued to download benefits for approximately 15 months after separating from
  the CPSC. Ultimately, the participant downloaded, received, and expended a total of
  $699.90 from July 2010 through October 2011;

o There were eight instances in which the Coordinator did not complete CPSC Form
  226 (Section 5a) in a timely fashion (within 30 days) after the employee separated
  from the agency and the FTBP;

o There were five instances in which participants who had separated from the CPSC
  had not been removed from the FTBP properly and/or in a timely manner (i.e., prior
  to exiting the agency). We found that the participants continued to have access to
  transit benefits after leaving the CPSC, and they could have used the transit benefits

                                      12
           when they were not authorized to do so. The total amount of benefits in question for
           these five participants was $943.50; and

       o Finally, in six instances the Coordinator did not contact the DOT TBM in a timely
         manner to have FTBP remove participants from the transit program who had
         separated from the CPSC and/or ceased participation. In the most extreme case
         identified, the participant separated on June 18, 2010 (as discussed in the 4th bullet
         above), but the official removal from FTBP did not occur until November 25, 2011.


Receipt of Transit Subsidy Debit Cards

   •   In December 2012, DOT established a Debit Card Program with JP Morgan. The Debit
       Card Program is designed to allow participants to use their transit subsidy benefits at
       commuter-direct transportation vendors. As such, the CPSC and DOT have established
       internal controls for participants to accept the cards, as well as internal controls for the
       FTBP Coordinator to receive and issue the cards properly. We performed procedures to
       test these internal controls and found that the Coordinator was not following proper
       procedures when receiving and issuing the debit cards to program participants.

       The Coordinator is required to provide copies of the documents to DOT establishing
       receipt of the debit cards by the participants. However, the Coordinator could only
       provide this documentation for the first two participants in the program. The Coordinator
       stated that she had stopped sending the debit card receipt documentation to DOT because
       the process had changed and it was no longer required. However, the Coordinator was
       unable to provide documentation to support this claim. We contacted the CPSC’s DOT
       TBM, who confirmed that receipt documentation is still required by DOT.

       Not only is the Coordinator not complying with Directive 862.1 Section 8-
       Responsibilities (e)(14) related to compliance with laws and regulations related to receipt
       of debit cards, but she is also creating a risk that transit subsidy benefits could be
       misappropriated. The failure to obtain receipt documentation from participants and
       provide the information to DOT increases the risk that authorized FTBP participants will
       not receive debit cards and that individuals who are unauthorized to use the program will
       receive debit cards.

   We recommend that EXFS and the FTBP Coordinator:

         1. Modify CPSC Directive 862.1 to comply with the new procedures for cancelling
            benefits through TranServe, to ensure proper and timely cancellation of benefits by
            the employees and the FTBP Coordinator (Note: CPSC Forms 119 and 119A are
            currently obsolete).

         2. Improve and strengthen controls over the monthly monitoring of TranServe data
            and transactions. The new controls should include a requirement for the
            Coordinator to review and investigate any differences between the TranServe data
            and transactions, and to note any suspicious or unusual activity. In addition, EXFS
            should update the SOP for monthly FTBP procedures and incorporate those updates
            into the CPSC Directive 862.1 under the Responsibilities Section for the FTBP
            Coordinator.

                                             13
             3. Strengthen the internal control procedures for reviewing FTBP applications,
                commuting costs, and verifying addresses to comply with the CPSC Directive
                862.1.

             4. Become familiar with the DOT Policy Guidance relevant to agency controls, and
                review the Guidance to ensure that the CPSC complies with the program internal
                control requirements. In particular, the CPSC needs to strengthen the policy over
                recertification procedures so that the recertifications are performed in a timely
                manner and in accordance with DOT policy.

             5. Verify all pertinent required information (i.e., station locations for commutes) that
                is included in the updated online TranServe Form before approving the application.
                Additionally, we recommend that EXFS Management and the FTBP Coordinator
                review the internal control requirements for the FTBP and strengthen internal
                controls over benefit recalculations to comply with this provision.

             6. Investigate and pursue the instances noted above in which individuals erroneously
                received benefits while taking extended leave, and recoup the benefits that were
                received improperly.

             7. Strengthen internal controls over the process used to remove individuals from the
                FTBP. The new internal controls should cover not only current CPSC employees
                who are withdrawing from the FTBP, but also employees withdrawing from the
                FTBP because they are separating from the agency.

             8. Investigate and pursue the instances noted above in which separated employees
                continued to receive benefits after leaving the CPSC, and recoup the benefits that
                were fraudulently downloaded and used.

             9. Work directly with the CPSC assigned TBM at DOT to resolve the discrepancy
                between the CPSC and DOT over what documentation must be provided to DOT
                regarding participants’ receipt of debit cards. The resolution of this matter should
                include having the FTBP Coordinator communicate directly with the TBM at DOT,
                understand what documents need to be provided for the receipt of the debit cards,
                and clarify when the documents must be provided.


2. Noncompliance with Government-Wide Policies and Procedures:

The CPSC is not in compliance with the following regulations governing the FTBP:

   •   OMB Circular A-123, Management’s Responsibility for Internal Control. OMB Circular A-
       123 states that agency management is responsible for establishing and maintaining internal
       controls to achieve the objectives of effective and efficient operations, reliable financial
       reporting, and compliance with applicable laws and regulations. We found many areas in
       which internal controls were designed inappropriately and/or were not effective at meeting
       the objectives of the CPSC’s administration of the FTBP. These internal controls also failed
       to prevent and correct errors. See additional discussion regarding: “Lack of Proper Design,
       Implementation, and Effective Internal Controls” below.

                                                14
   •   OMB M-07-15, Federal Transit Benefit Program Memorandum. This memorandum
       provides guidance to agency and department heads regarding the minimum level of internal
       controls required by agencies over the FTBP. The memorandum also requests that agencies
       confirm that the required internal controls are in place and effective. Various controls
       outlined in this memorandum are specifically associated with participant address verification,
       the accuracy of benefits received, the return of excess benefits, and removal of participants
       from the program. As indicated above, the CPSC has not implemented and/or effectively
       maintained internal controls over the FTBP.

Most of the internal control issues noted above concern compliance with laws and regulations and the
lack of oversight by EXFS Management over the Coordinator. Currently, management relies on the
Coordinator to administer the program in accordance with CPSC policy and procedures, as well as
comply with federal laws and regulations. While constant oversight is unnecessary, there appears to
be no periodic follow-up with the Coordinator to ensure that established internal controls are
operating as intended. This is reflected in the Coordinator’s ability to override/overlook certain
internal controls for long periods of time without detection by agency management. Noncompliance
with laws and regulations over the FTBP puts the CPSC at risk of incorrect and potentially fraudulent
transactions by participants, transactions that go unnoticed by management. The CPSC could be held
responsible for the waste of government funding associated with the FTBP if these abusive
transactions continue.

       We recommend that EXFS and the FTBP Coordinator:

             10. Review the internal controls associated with the program to ensure that the these
                 controls are designed and operating not only in compliance with the relevant laws
                 and general federal regulations, but also in accordance with the internal controls
                 specific to the CPSC as set out in CPSC Directive 862.1. Because CPSC
                 management is ultimately responsible for the proper execution of established
                 internal controls, we also recommend that EXFS Management conduct periodic
                 reviews of those internal controls performed by the FTBP Coordinator. These
                 reviews will be conducted to ensure FTBP’s operating effectiveness and to prevent
                 the possibility of the FTBP Coordinator becoming a single point of failure for the
                 program as a whole.




3. Lack of Properly Designed, Implemented, and Effective Internal Controls:

We identified internal controls implemented by EXFS that were designed insufficiently and/or are
not operating effectively to prevent and correct errors and misuse throughout the CPSC FTBP. For
additional details and discussion about the FTBP internal controls design and operating effectiveness
and the weaknesses we identified, see Section 1 above. Overall, we noted the following internal
control weaknesses:

       a) Failure to comply with established internal controls regarding the use of CPSC Form
          119A to initiate, modify, or terminate FTBP benefits;

       b) Failure of established internal controls to monitor FTBP participant activity;

                                                 15
c) Failure to follow established internal controls for verification of FTBP participant home
   addresses to the determine the appropriate amount of benefits a participant is to receive;

d) The internal controls developed over the authorization to participate in the FTBP are not
   functioning as intended;

e) Lack of agency internal controls over the monitoring of extended leave and use of transit
   benefits prior to controls implemented by DOT, and;

f) Failure to follow established internal controls over the documentation of receipt of debit
   cards.

We recommend that EXFS and the FTBP Coordinator:

     11. Review the internal controls associated with the program to ensure compliance with
         laws and regulations and to update and maintain compliance with CPSC Directive
         862.1. To assist in ensuring compliance with internal control over laws and
         regulations, we also recommend that EXFS Management develop periodic review
         of the internal controls performed by the FTBP Coordinator to ensure the
         program’s operating effectiveness. Ultimately, CPSC Management is responsible
         for proper execution of established internal controls.




                                         16
                                       CONCLUSION

Based on the results and findings noted above, the CPSC has not complied with its policies and
procedures or the government-wide FTBP regulations, policies, and procedures. Moreover, the
CPSC’s FTBP has significant internal control weaknesses. We have discussed our recommendations
with management. Management has indicated that they plan to take the proper action to remediate
the issues noted and will implement policies and procedures to strengthen the program through a
Corrective Action Plan (CAP).




                                              17
APPENDIX A: MANAGEMENT RESPONSE




 PAGE INTENTIONALLY LEFT BLANK




              18
             UNITED STATES
             CONSUMER PRODUCT SAFETY COMMISSION
             WASHINGTON, DC 20207

Memorandum


                                                                                             March 18, 2014

TO:             Chris Dente!
                Office of Inspector General


THROUGH:        De Wane J. Ray,
                                                       JERRY
                Deputy Executive Director
                                                       RAY
                Operations Support
                                                                                                  Digitally s1gned by DOUGLAS BROWN

FROM:           Douglas F Brown
                              •
                                                                      DoUGLAS                     DN.c,US,o=US.Government,ou,(onsumer
                                                                                                  Product Safety CommiSSIOn, cn=DOUGLAS


                Director Office of Facilities Services
                          '
                                                                      BROWN                       ~~o,~~"'oo'oo'oo""'""'ooooo""
                                                                                                  Date:2014.031809:28:31-0<l'OO'


SUBJECT:        The OIG's Audit ofFY13 Transit Subsidy Benefit Program


The Office of Facilities Services (EXFS) has reviewed the Office of Inspector General (OIG)
FY13 Transit Subsidy Benefit Program (TSBP) audit findings and recommendations. EXFS
generally agrees with the OIG's finding and recommendations and submits the following
response:

   1.    Cancellation ofFederal Transit Benefits Using Form 119A-"We recommend that the
        TSB Coordinator comply with the CPSC Directive 862.1 Policies and procedures over
        participants cancelling benefits formally using the Form 119A."

        Response: Effective February 1, 2013, CPSC implemented the new TRANServe
        Transit Benefit Online Application. This new system replaced the need to use form
        CPSC 119 and CPSC 119A. The system allows users to enroll, certify, update
        changes and withdraw from the program. However, even with the new system and
        annual training, employees do not always use the system to withdraw when
        separating from CPSC. When this happens, the TSBP Coordinator sends an email
        to the Department of Transportation to immediately cancel benefits for employees
        that are withdrawn from the program. The TSBP coordinator will receive
        employee departure notices and will review weekly staffing reports to see if an
        employee has departed the agency and should be remove from the program. EXFS
        will update CPSC Directive 862.1 to reflect the use of the new system.

   2. Improper of Monthly Monitory of the TranServe and DOT Data-"We recommend that the
      Office Facilities (EXFS) management and the TSBP Coordinator improve and strengthen
      controls over the monthly monitoring of TranServe data and related transactions. This
      can be accomplished by incorporating the monthly monitoring procedures into CPSC
      Directive 862.1 under the responsibilities of the TSBP Coordinator and/or developing a
      Standard Operating Procedure (SOP). The policy should enhance Management's and the


                     CPSC Hotline: 1-800-638-CPSC(2772) If CPSC's Web Site: http://www.cpsc.gov
   Coordinator’s awareness of the program’s activity, so that when variances do arise, a
   process is in place to review and investigate those variances to identify any suspicious or
   unusual activity.”

   Response: EXFS management agrees with the recommendation. The TSBP
   Coordinator’s position is currently vacant and EXFS management is in the process
   of filling the vacancy. EXFS management is handling the duties. EXFS
   management will work with the new TSBP Coordinator to improve and strengthen
   implementation of controls over the monthly reconciliation process so that all
   variances are brought to management’s attention and reconciled.

3. Address Verification-“The verification of addresses at the time of enrollment for all
   participants, as well as annually to ensure claimed commuting costs are accurate.

   When the TSBP Coordinator discovers a discrepancy with a participant’s address, the coordinator
   should immediately follow up with the participant and/or EXRM. Further, if EXRM does not
   provide the address, the Coordinator should notify EXFS Management for assistance in obtaining
   all information necessary.”

   Response: EXFS management agrees with the recommendation. The TSBP
   Coordinator’s position is currently vacant and EXFS management is in the process
   of filling the vacancy. EXFS management is handling the duties. EXFS
   management will work with the new TSBP Coordinator on establishing standard
   operating procedures to strengthen the internal control for reviewing TSBP
   applications, commuting costs and verifying addresses to comply with OMB M-07-
   15 and updating the CPSC Directive 862.1.

4. Control Exceptions and Weaknesses over the TSBP Process- “We recommend that the
   TSBP Coordinator becomes compliant with the CPSC Directive 862.1 policies and
   procedures over reviewing and approving the Forms 119 and 119A. There should be
   specific focus during review to ensure accurate reflection of the maximum statutory
   amount allowable on the application forms and the approval amounts to ensure
   participants are not over the statutory limit.

   We recommend that the TSBP Coordinator becomes familiar with the DoT Policy
   Guidance for agency controls and reviews them to ensure the CPSC’s compliance.

   Further, we recommend that the Office of Facilities (EXFS) Management reinforce the
   recertification procedures established by the agency to ensure that the TSBP Coordinates
   performs the re-certifications in a manner that is timely and in accordance with the CPSC
   policy.”

   Response: Effective February 1, 2013, CPSC implemented the new TRANServe
   Transit Benefit Online Application. This new system replaced the need to use form
   CPSC 119 and CPSC 119A. The system allows users to enroll, certify, update
   changes and withdraw from the program. EXFS is updating the Directive to reflect
   the new TranServe website. In addition, EXFS works very closely with the DOT


                                             -2-
   staff in making sure participants comply with the statutory benefit amount.
   However, if Congress changes the statutory rate in the middle of the year, our DOT
   Customer Services Representative requests that our employees do not make any
   adjustments or re-submit new applications as they will make the necessary
   adjustments to curtail the voluminous amount of new applications received from
   Federal Agencies. For example: December 2013 CPSC had started its annual
   recertification before DOT notified EXFS of the decreased statutory transit benefit
   (from $245 to $130). Some staff had completed their re-certification application and
   subsequently used their actual commuting cost, which exceeded $130. DOT
   informed CPSC that staff did not have to adjust their commuting cost if it exceeded
   the $130 in the event Congress increased the statutory amount during FY14. DOT
   makes sure that the participants’ monthly amount does not exceed the current
   statutory amount.

   EXFS has established a mandatory re-certification month of December and
   procedures to ensure that the new TSBP Coordinator performs the re-certifications
   in a timely manner.

5. Re-calculation of Monthly Benefits- “We recommend that the TSBP Coordinator
   becomes compliant with the CPSC Directive 862.1 policies and procedures over
   reviewing and approving the 119 and 119A Forms related to recalculating the total
   commuting costs of participants; as well as, the mathematical accuracy of the calculation.

   We recommend that the Office of Facilities (EXFS) and the TSBP Coordinator
   investigate the instances noted above where individuals erroneously received incorrect
   benefits and recoup the benefits that were not allowable during the period received.

   We recommend that the TSBP coordinator verify all pertinent required information (i.e.
   station locations for commutes) that is included in the 119A Form before approving the
   application.

   We further recommend that the EXFS Management and the TSBP Coordinator review
   the control requirements noted in OMB M-07-15 and strengthen controls over benefits
   recalculation to comply with this provision.”

   Response: As stated above, the CPSC Form 119 and 119A has been replaced by an
   online system. This new online system accepts the CPSC Employee’s application for
   transit benefits and calculates their eligible commuting costs, ensuring participants
   receive the subsidy amount they are entitled.

   EXFS management will investigate the instances noted above where individuals
   erroneously received incorrect benefits and attempt to recoup the benefits that were
   not allowable during the period received.




                                           -3-
   EXFS established procedures for verifying pertinent required information (i.e.,
   station location and tour of duty) that is included in the TranServe application
   before approving the application.
6. Return Excess Benefits- We acknowledged that starting in December 2011, TranServe
   developed mitigating internal controls to remove excess benefits from participants
   SmarTrip and debit cards automatically at the end of the month. Therefore, we will
   consider this finding remediated based on the recent mitigating factors established within
   DoT’s TransServe system. However, we still recommend that the Office of Facilities
   (EXFS) and the TSBP Coordinator consider investigating the exceptions noting above
   and recoup the excess benefits from the participants identified. Further, we recommend
   that EXFS Management and the TSBP Coordinator strengthen the monthly monitoring
   over transit transactions to ensure that the amounts claimed and used by participants are
   in accordance with CPSC Directive 862.1; as well as, OMB M-07-15 going forward.

   Response: EXFS Management has recouped the excess benefits from participants in
   sample #25, #37 and #5, and have forwarded the checks to Division of Finance
   Services. EXFS requested EXRM recoup the excess benefits from staff that have
   separated from the Agency through the Treasury Offset process. The new
   TranServe system will automatically remove excess funds at the end of the month.

7. Separated Employees from CPSC and the TSBP- “We recommend that the EXFS
   Management and TSBP Coordinator become compliant with the CPSC Directive 862.1
   and OMB M-07-15. This requires that the EXFS Management and the TSBP coordinator
   strengthen internal controls over properly coordinating the removal of not only TSBP
   participants, but also employees separating from the agency as a whole. A part of
   strengthening this process should include:

   EXFS management and the TSBP Coordinator reincorporating and reinforcing the use of
   the CPSC Form 119A to cancel benefits as a formal mechanism to end participation in
   the TSBP, regardless of reason.

   The TSBP Coordinator soliciting and only accepting the Form 119A from the participants
   for cancelling TSBP benefits when the EXRM sends out the notification email regarding
   employee separation. The receipt of this form should correspond with the Coordinators
   signature and date on the CPSC Form 226.

   EXFS establishing time frames in which the TSBP Coordinator has to complete the
   removal process of TSBP participant beginning with the acceptance of 119A and/or the
   CPSC Form 226, communication to DoT, and the subsequent follow-up.

   We further recommend that EXFS re-pursues action to recoup the funds downloaded by
   Sample #34 after separation in the amount of $699.90. Although follow up was
   attempted to be made with the individual, EXFS did not pursue action once a reply was
   not received by the individual. As the benefits were fraudulently downloaded for over a
   year after the individual separated from the agency, the amount should be paid back to
   CPSC.”


                                           -4-
   Response: EXFS management agrees with the recommendation. The TSBP
   Coordinator’s position is currently vacant and EXFS management is in the process
   of filling the vacancy. The duties are being handled by EXFS management. EXFS
   management will work with the new TSBP Coordinator on establishing standard
   operating procedures to strengthen the internal control for properly coordinating
   the removal of not only TSBP participants, but also employees separating from the
   agency as a whole.

   Effective February 1, 2013, CPSC implemented the new TRANServe Transit Benefit
   Online Application. This new system replaced the need to use form CPSC 119 and
   CPSC 119A. The system allows users to enroll, certify, update changes and
   withdraw from the program. However, even with the new system and annual
   training, employees do not always use the system to withdraw when separating from
   CPSC. When this happens the TSBP Coordinator sends an email to the Department
   of Transportation to immediately cancel benefits for employees that are withdrawn
   from the program. The TSBP coordinator receives employee departure notices and
   reviews weekly staffing reports to see if an employee has departed the agency and
   should be removed from the program. CPSC Directive 862.1 is being updated to
   reflect the use of the new system.

   EXFS will request EXRM to recoup the excess benefits from sample #34 through
   the Treasury Offset process.

8. Receipt of Debit Cards- We recommend that the TSBP Coordinator follow the DoT policy
   as described for all TSBP Debit Card participants and ensure the retention of all
   documentation. If the Coordinator does not understand the documentation requirements,
   it is the Coordinator’s responsibility to contact the DoT directly for guidance. If DoT
   cannot provide sufficient guidance, the TSBP Coordinator should inform EXFS
   Management for assistance. We also recommend that the TSBP Coordinator provide
   complete receipt documentation to the assigned CPSC TBM at DoT, as soon as possible
   for the remaining Debit Cards issued.

   Response: EXFS will work with DOT and the new TSBP Coordinator in
   establishing procedures for the handling of TSBP Debit Cards.

9. Non Compliance with Laws and Regulations-“ We recommend that the EXFS Management
   works with the TSBP Coordinator to review the internal controls associated with the
   program to ensure that compliance over not only laws and regulations, but also
   compliance the CPSC Directive 862.1 internal controls established. To assist in ensuring
   compliance with internal control over laws and regulations, we also recommend that
   EXFS Management develop periodic review of the internal controls performed by the
   TSBP Coordinator to ensure the programs operating effectiveness, as CPSC Management
   is ultimately responsible for proper execution of established internal controls.

   Response: EXFS concurs with the above recommendations.



                                          -5-
